LSC OIG Compliance Assessment 10/99
Home < Reports < Other   Legal Services Corporation Office of Inspector General
Assessment of Compliance with Restrictions and the Compliance Oversight System
as of September 30, 1999
October 29, 1999
The purpose of this report is to provide an assessment of grantee compliance
with restrictions on the services provided by grantees, and an assessment of the
effectiveness of the oversight system itself.
Background
The Congress imposed a new compliance oversight system in the Legal
Services Corporation appropriations statute for fiscal year 1996.  LSC management
had made monitoring visits to grantees on a periodic basis until 1994, when
monitoring was suspended as a program of peer reviews was being designed to
replace it.
The new compliance oversight system is based on the annual financial audits
of grantees conducted by independent public accounting firms, or "IPAs".  The
statute required that these audits also check grantee compliance with the
restrictions and prohibitions on the legal services provided by grantees, in
accordance with guidance established by the Office of Inspector General, or "OIG."
The law also required that the OIG refer IPA findings for follow up and track the
progress of corrective actions by grantees and LSC management.
Implementing Actions
The LSC OIG published a new Audit Guide in Fall 1996, which included a
Compliance Supplement that provided guidance to the IPAs conducting the audits.
The Compliance Supplement covers 24 regulations, provides a summary of each
regulation and suggests audit procedures for the IPAs to follow in testing grantee
compliance with the regulations. The Compliance Supplement has been updated
twice, primarily as a result of changes to LSC laws and regulations.
The OIG also developed the Audit Information Management System (AIMS)
in anticipation of the substantial administrative workload associated with the new
compliance oversight system.  The receipt and review of the several hundred
grantee audit reports due each year, the resultant reporting of findings to LSC
management, and the subsequent tracking of corrective actions, would have
completely consumed the OIG audit staff resources without AIMS.
Compliance Verification
The OIG uses a three-prong strategy to verify compliance with the
congressionally-imposed prohibitions and restrictions.  As required by law, the
grantees hire independent public accountants to check compliance as part of the
annual financial audits, and the OIG reviews these reports to determine if they
meet our audit requirements. The OIG refers significant IPA  findings to LSC
management for follow up to ensure that the grantees correct the reported
problems. The OIG conducts Audit Service Reviews which are quality controls
checks of the IPAs work.  The OIG will conduct a series of program integrity
audits that will test grantees compliance with the prohibition on providing support
with LSC funds to organizations that engage in restricted or prohibited activities.
Grantee Audit Results
The independent public accountants have submitted 752 audit reports since
the inception of the new system.  These audit reports cover all grantees with fiscal
year ends between December 31, 1996 and May 30, 1999.  The Office of
Inspector General has published summary reports covering various segments of
this time period. [AU97-002, AU98-002,
AU98-003, and AU99-016].
The IPA reports contained a total of 162 significant findings,
which were referred to LSC management for corrective action.
The independent public accountants have reported only three findings of
practice restrictions thus far.  All of these were in the initial period.  In one, a class
action case was not divested until 13 days after the statutory deadline for
implementation; in another, a motion to withdraw from representation of a group of
aliens was opposed by the state and pending at the time of the audit.  A third
finding reported that  a grantee employee had used an organizational computer on
one occasion during the employees campaign for state office.
Figure 1 depicts the nature of the remaining 159 findings.  There were 48
findings of internal control weaknesses, 45 findings of missing and/or unsigned
documents, 35 findings of various procedural problems, 19 findings relating to
timekeeping procedures, and 12 findings concerning LSC fund balance or case
management reporting.
Of these findings, the 45 reporting missing documentation are of greatest
concern, because missing documentation has the potential to conceal
noncompliance.
Figure 1
SUMMARY OF SIGNIFICANT FINDINGS IN GRANTEE AUDIT REPORTS REFERRED TO LSC MANAGEMENT
Type of Finding
216 GranteeAudits withFY-end 12/31/96
266 Grantee AuditsforCalendar Year 1997
263 Grantee AuditsforCalendar Year 1998
7 Grantee AuditswithFY-end 1/1/99 -5/31/99
TOTAL
Noncompliance with prohibitions and/or restrictions3   3
Internal Control Problems
Procedures lacking or not followed
Reconciliation of client trust accounts
Processing financial data
Weaknesses over cash receipts/disbursements
Segregation of duties
16923 48
Missing and/or Unsigned Documents (I.e., client statement of facts, citizenship attestation, retainer agreements)
241010145
Timekeeping Procedures and/or Systems Problems
1135 19
Case Management Reporting
23 5
LSC fund balance was greater than 10 percent of LSC support requiring a waiver from LSC
511 7
Other Procedural/Regulatory Problems
Qualified Opinion in Audit Report
FDIC insurance limits exceeded
Implementing procedures for regulations lacking
PAI shortfall
Questioned Cost
Uncorrected Prior Year Finding
12517135
TOTAL NUMBER OF FINDINGS
7130592162
Effectiveness of Grantee Audits
The above findings provide reasonable assurance of system compliance only
if the audits conducted by the independent public accountants are effective.  To
obtain information on audit effectiveness, the OIG began performing Audit Service
Reviews, or ASRs, in fiscal year 1998. ASRs are on-site reviews of the
independent auditors work papers to verify that effective compliance checks were
made, all material findings were reported, and the audit reports provided reasonable
assurance that the grantees complied with the prohibitions and restrictions.
Ten ASRs were performed in fiscal year 1998 and early fiscal year 1999.
Four of the 10 grantee audits were inadequate and the OIG required the IPAs to do
additional work to correct the deficiencies. Two audits were found inadequate
because the IPAs were not given full access to case file information; one was given
only redacted information.  In one audit the IPA did not adequately test compliance
due to a sampling deficiency, and in another audit the IPA did not adequately verify
the extent of the grantees involvement in a restricted case.
The OIG performed 60 ASRs in fiscal year 1999.  Each ASR examined the
independent accountants work on the 14 regulations noted as requiring special
compliance reporting in the OIG Compliance Supplement.  These 14 regulations
cover all of the restrictions imposed and/or amended by the fiscal year 1996
appropriations statute.
The ASRs determined that 49 of the 60 audits adequately reviewed all 14
regulations.  Three audits were deficient primarily due to a systemic flaw in the
case samples.  Two audits conducted by the same auditor were not performed in
accordance with auditing standards and therefore the adequacy of the audit tests
could not be determined.  Another auditor did not adequately test a grantees
compliance with the regulation prohibiting collection of attorney fees and, therefore
failed to detect a violation of the regulation.  The remaining five audits involved
isolated deficiencies in one to three regulations.
Of the 60 audits reviewed, the regulation with the lowest level of adequate
checking was timekeeping, where 88 percent of the audits proved effective.  The
remaining 13 regulations were adequately checked in between 90 percent and
97 percent of the audits.  Figure 2 depicts the degree to which each of the 14
regulations was adequately checked by the IPA.
The 1999 ASRs showed that the IPAs review of grantees compliance with
LSC prohibitions and restrictions is working although some improvements are
needed.  The IPA reviews provide a reasonable level of assurance that the grantees
are complying with the LSC prohibitions and restrictions.  There were no
indications that widespread violations of practice restrictions have occurred
Figure 2
LSC OIGSUMMARY OF REGULATIONS ADEQUATELY TESTEDFY 1999 AUDIT SERVICE REVIEWS
ITEMREGULATIONDESCRIPTIONAUDITSTESTINGADEQUATE
%AUDITSTESTINGINADEQUATE%
11627Subgrants5897%23%
21638Solicitation5897%23%
31610Use of Non-LSC Funds5897%23%
41642Attorneys' Fees5795%35%
51612Lobbying & Certain Other Activities5795%35%
61617Class Actions5592%58%
71626Alien Representation5592%58%
81632Redistricting5592%58%
91633Eviction Proceedings5592%58%
101636Client Identity & Statement of Facts5592%58%
111637Prisoner Litigation5592%58%
121639Welfare Reform5592%58%
131620Priorities5490%610%
141635Timekeeping5388%712%
The 1999 ASRs also identified some areas where OIG guidance could be
improved to ensure adequate sample size for testing purposes and to account for
the interrelationship of some regulations.  The OIG will make those improvements,
and will perform Audit Service Reviews on a continuing basis  as a routine check of
the oversight system. The OIG will continue to evaluate the compliance oversight
system as part of our continuing risk assessment.
Program Integrity
The audits of the independent public accountants have not reported
noncompliance with practice restrictions, and the ASRs confirmed that the
compliance checks for the 14 regulations were adequate for 88 percent to
97 percent of the audits.  However, it would be possible for a grant recipient to
evade practice restrictions by diverting LSC funds or other resources to entities
that engage in restricted activities.  LSC regulation 45 C.F.R Section 1610.8
requires  grantees to maintain separation from such organizations.
The Office of Inspector General had planned to conduct a series of audits of
program integrity in fiscal year 2000.  However, because problems with Case
Statistical Reports continue to be detected, additional work in that area in fiscal
year 2000 is required.  As a consequence, the OIG will be unable to conduct the
program integrity audit series until fiscal year 2001, except for one program
integrity audit in fiscal year 2000 to refine its procedures for the following year.
Summary
The independent public accountants have reported only three findings of
noncompliance with practice restrictions in the approximately three years since the
1996 appropriation established the new compliance oversight system.  Two of the
three findings were  transition-related problems.
Sixty Audit Service Reviews of the 1997/1998 audits conducted by the
independent public accountants determined that the grantee audits adequately
checked the governing regulations 88 percent to 97 percent of the time.
Last, program integrity audits are needed to ensure that grantees have
complied with LSC regulatory requirements for separation from organizations that
engage in restricted activities.  The LSC OIG plans to perform those audits in fiscal
year 2001.
URL: http://oig.lsc.gov/reports/coa1099.htm